i.
i

No.

Supreme Court, U.S.
FILED

JV/JL83

mi 0 1 2020

IN THE
SUPREME COURT OF THE UNITED STATES

OFFICE OF THE CLERK

JAMES TOLLE,
Petitioner,
vs.
GOVERNOR RALPH NORTHAM
AND THE COMMONWEALTH OF VIRGINIA,
Respondents.
\

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
PETITION FOR A WRIT OF CERTIORARI
James Tolle
pro se
11171 Soldiers Court
Manassas, VA 20109
(703) 232-9970
jtmail0000@yahoo.com

Governor Ralph Northam
Office of the Governor
1111 East Broad Street
Richmond, Virginia 23219
Commonwealth of Virginia
Mark Herring
Attorney General
Toby Heytens
Solicitor of General
Office of the Attorney General
202 North Ninth Street
Richmond, Virginia 23219

may

-$ 2020

i.

QUESTIONS PRESENTED
1.

Defendant Northam’s Executive Order 55 (2020) institutes quarantine restrictions

on all Virginians without invoking Va. Code § 32.1-48.08 and without explicitly providing any
due process to citizens challenging their quarantine. Subsequently, the District Court’s Order
denies Petitioner any timely procedural due process during a quarantine. The questions related to
these facts are as follows:
a)

Can the Governor legally deprive citizens of liberty and property rights and

circumvent the statutory protections for quarantined individuals by establishing a quarantine
under emergency powers without invoking the quarantine statutes called for under those
emergency powers?
b)

Can the State deprive citizens of liberty and property for quarantine reasons

without the due process required by O ’Connor v. Donaldson, and universally treat all citizens as
infected subject to quarantine without offering individual assessments as required by Demore v.
Kim?
c)

Does the District Court’s denial of Petitioner’s request for a hearing during the

period of the quarantine and the Appellate Court’s denial of Petitioner’s request for an
emergency injunction or stay without an expedited hearing violate the Fifth or Fourteenth
Amendments by extinguishing citizens’ rights to due process when there is no other avenue for
due process provided by the State to redress ongoing injuiy to Petitioner’s rights?
d)

Does the quarantine imposed by Defendant Northam’s Executive Orders which

applies universally to all citizens violate the requirement for the restriction of liberty to be the
least restrictive means possible as called for under Shelton v. Tucker?

ii

i "<

2.

If Defendant Northam’s actions and orders under Executive Order 55 (2020)

(hereinafter, “EO-55”) are not considered a quarantine, Defendant Northam’s Executive Orders
issued under Va. Code § 44.146-17 are the most extensive use of executive powers by a
Governor of Virginia at least since the Civil War and for the first time in history, apply
emergency powers which restrict all citizens liberty and property rights under criminal penalty
universally on all people throughout the extent of Virginia, without any limitation or mitigation.
Also, Defendant Northam’s Executive Orders and the statute cited do not explicitly provide due
process to citizens injured by the order and are in effect until June 10, 2020, at which time
Defendant Northam can summarily extend them for another year. The questions related to these
facts are as follows:
a)

Can the Governor use emergency powers under a statute (which was not intended

by the legislature to be used without a quarantine order during a public health threat) to deprive
the entire citizenry of the state of their constitutional right to travel, assemble, worship and use
their property, without legislative action for an extended period of time?
b)

Does the District Court’s denial of Petitioner’s request for a hearing during the

period of a State of Emergency and the Appellate Court’s denial of Petitioner’s request for an
emergency injunction or stay without an expedited hearing violate the Fifth or Fourteenth
Amendments by extinguishing citizens’ rights to due process when there is no other avenue for
due process provided by the State to redress ongoing injury to Petitioner’s rights?
c)

Can Defendant Northam use his emergency powers to deprive all citizens of

Virginia their liberty and property rights without due process as required by Joint Anti-Fascist
Refugees Committee v. McGrath?
d)

Is the principal under Korematsu v. United States which allows the State to

deprive individuals of their liberty and property rights during national emergencies when the
iii

i I

authorities believe it is too hard to separate the dangerous individuals from the innocent citizens
still valid and does this principal justify Defendant Northam’s use of emergency powers because
of the Governor’s belief that it is too difficult to separate the infected from the healthy during the
COVID-19 pandemic?
3.

Did the District Court err by not showing proper discretion in its analysis of all of

the criteria for a request for preliminary relief and by failing to give serious consideration to the
balancing of equities and the public interest required by Winter v. Natural Res. Def. Council,
Inc., 555 U. S. 7 (2008)? Did the Appellate Court err by denying Petitioner preliminary relief or
expedited hearing when the District Court’s review was cursory and barely exercised the
discretion required in the matter?
4.

To the extent that the District Court reviewed some of the Petitioner’s arguments

concerning the law in light of Winter v. Natural Res. Def. Council, Inc., 555 U. S. 7 (2008), the
District Court’s application of Winter erred in law, raising the following questions:
a)

Did the District Court’s balancing of equities Winter err in law under Winter?

b)

Was the District Court’s consideration of the public interest under Winter fatally

flawed due to a cursory review which dismissed Petitioner’s arguments in favor of a single factor
and facts which were clearly wrong?
5.

The District Court’s Order erred in fact by denying a preliminary hearing due to

Chief Judge’s General Order 2020-07 (hereinafter, “EDVA G.O. 2020-7”), which allows for
hearings when a manifest injustice would result if delayed and also does not preclude expedited
proceedings that are held via conference calls or video proceedings. The questions related to
these facts are as follows:
a)

Does the failure of a District Court to provide alternative hearing procedures (by

telephone, video or otherwise) for emergency motions for preliminary relief when a State of
iv

'•)
*

Emergency precludes in-person hearings violate the rights to due process under the Fifth or
Fourteenth Amendments?
b)

Was the District Court’s use of EDVA G. O. 2020-7 to deny Petitioner’s request

for preliminary relief clearly wrong based on the errors in fact?

v

/

I*

CORPORATE DISCLOSURE STATEMENT
6.

Pursuant to Rule 29.6 of this Court’s Rules, Petitioner Tolle states that he has no

parent corporation in this action and no publicly held corporation has an interest with Petitioner
Tolle in this action.

•v

VI

*

4

\

LIST OF PARTIES
7.

All parties appear in the caption of the case on the cover page.

vn

(» '
i

LIST OF ALL DIRECTLY RELATED PROCEEDINGS
8,

James Tolle v. Governor Northam, et ah, Number l:20cv363, U. S. District Court

for the Eastern District of Virginia, Order denying preliminary relief entered April 8, 2020.
9.

James Tolle v. Governor Northam, etah, Number 20-1419, U. S. Court of Appeals

for tiie Fourth Circuit. Order denying stay pending appeal entered April 28, 2020.

viii

M f

TABLE OF CONTENTS

Questions Presented

ii

Corporate Disclosure Statement

.vi

List of Parties

.vii

List of All Directly Related Proceedings

.viii

Table of Authorities

■XI

Opinions Below (Citations of Orders Entered in this Case).

1

Jurisdiction

2

Constitutional Provisions and Statutes Involved in this Case

.3

Statement

.4

Reasons for Granting the Petition

8

Circumvention of Quarantine Law

.8

Abuse of Emergency Powers...............................................................

10

Denial of Due Process in the Courts during the State of Emergency....

....12

Misapplication of Law under Winter v. Natural Resource Def. Council

14

Balancing of Equities under Winter..........................................

16

Consideration of the Public Interest...

18

Life and Death Considerations

20

Misapplication of Winter Analysis is Fatal

21

Conclusion

,23

INDEX TO APPENDICES
Appendix A

Fourth Circuit Court of Appeals Order of April 28,2020
ix

Appendix B.

........ —............................... ........... District Court’s Order of April 8, 2020

Appendix C

........................................ ................District Court’s Order of April 1, 2020

Appendix D

—.......Defendant Northam’s Executive Order 55 (2020) of March 30,2020

Appendix E.

......................... ...................... ......... Petitioner’s Complaint of April 1, 2020

Appendix F.

Petitioner ’s Motion for Preliminary Injunction and Expedited Hearing of
April 1, 2020

Appendix G..........Petitioner’s Motion for Reconsideration of Court Order Denying Preliminary
Injunction, Expedited Hearing and Service of Complaint by
United States Marshal Service of April 6, 2020
Appendix H

..Petitioner’s Emergency Motion for TRO or Preliminary Injunction/
Stay of Defendant Northam’s Executive Order 55 (2020) of April 16, 2020

Appendix I.................Defendant Northam’s Amended Order of the Governor and State Health
Commissioner Extending Order of Public Health Emergency Two of
April 23, 2020
Appendix J.

Relevant Constitutional References

Appendix K

Relevant Statutes

x

TABLE OF AUTHORITIES CITED
Federal Cases
Binford v. Sununu
No. 217-2020-CV-00152 (N.H. Super. Ct. Mar. 25, 2020)
Demore v. Kim
538 U. S. 510 (2003)

23

ii

Friends of DeVito v. Wolf,
No. 68 MM 2020, 2020 WL 1847100 (Pa. Apr. 13, 2020)

24

Gibbons v. Ogden
22 U.S. 1, 203 (1824)

10

Goldberg v. Kelly
397 U.S. 254 (1970)

13

Jew Ho v. Williamson
103 F.10 (C.C.N.D. Cal., 1900)

10,17

Joint Anti-Fascist Refugees Committee v. McGrath
341 U.S. 123 (1951)....................................

in, 13

Korematsu v. United States
323 U.S. 214, 219 (1944)

iii, 5, 6, 8, 10-12,19, 23, Footnote 2

Morrissey v. Brewer
408 U.S. 471, 481 (1972)

13

Nigen v. New York
No. l:20-cv-01576-EK-PK
ECF No. 7 (E.D.N.Y. Mar. 29, 2020)

24

O’Connor v. Donaldson
Number 3:20-CV-264, WDK

.ii, 9

Reilly v. City of Harrisburg
No. 16-3722, (3d Cir. 2017)

18

Shelton v. Tucker
364 U.S. 479 (1960)

ii, 10

Smith v. Avino
91 F.3d 105 (11th Cir. 1996)

23, Footnote 4

xi

Trump v. Hawaii
585 U.S.___(2018), Record No. 17-965.
Winter v. Natural Res. Def. Council, Inc.
555 U. S. 7 (2008)......................

11
iv, 1, 8,14-24, Footnotes 1 and 3

Zinermon v. Burch
494 U.S. 113 (1990)

8

United States Constitution
First Amendment

4,17

Fourth Amendment

,4, 17

Fifth

ii, iii, iv, 8, 12, 13

Fourteenth Amendment

4, 8,13,17

Virginia Statutes
Va. Code § 44.146-17.

iii, 4, 9

Va. Code § 32.1-48.05

.4,9

Va. Code § 32.1-48.08

ii

Va. Code § 32.1-48.010

4,9

i

xii

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment and orders
below.
OPINIONS BELOW
(CITATIONS OF ORDERS ENTERED IN THE CASE)
10.

The District Court’s Order of April 1, 2020 denied Petitioner’s emergency request

for Temporary Restraining Order, Preliminary Injunction or preliminary-injunction hearing based
on the emergency of the Coranavirus and the prohibition against in-person hearings under EDVA
G.0.2020-7. This Order is included in Appendix C.
11.

The District Court’s Order of April 8, 2020, which ruled on Petitioner’s request

for reconsideration by denying Petitioner’s request for preliminary relief or a preliminaryinjunction hearing is provided in the Appendix. The District Court’s Order addressed some of
Petitioner’s arguments concerning Winter but did not address other arguments under Winter. This
Order is included in Appendix B.
12.

Petitioner appealed the District Court’s Order on April 13, 2020, as an

interlocutory order with a motion for emergency preliminary relief and preliminary-injunction
hearing. The Fourth Circuit Court of Appeals ruled against Petitioner’s motion for emergency
preliminary relief and preliminary-injunction hearing. This Fourth Circuit Court of Appeals’
Order was entered on April 28, 2020 and is included in Appendix A.

1

JURISDICTION
12.

The District Court entered a Final Order denying Petitioner’s emergency request

for preliminary relief or expedited hearing on April 8, 2020. Petitioner appealed to the Fourth
Circuit Court of Appeals on April 13, 2020, requesting an emergency prel iminary injunction or
stay pending appeal at the time of the appeal. Petitioner’s motion requested an expedited
preliminary-injunction hearing if a stay was not granted. The Fourth Circuit Court of Appeals
filed an Order on April 28, 2020, which denied Petitioner’s request for emergency injunction or
stay pending appeal and did not offer Petitioner an expedited hearing. Petitioner is seeking a
Writ of Certiorari to a United States Court of Appeals before judgment pursuant to 28 USC §
2101(e) and Rule 11 of this Court’s Rules because of the public importance related to the
suspension of the constitutional rights of millions of citizens like Petitioner during the COVID19 pandemic and due to the need for immediate redress of Defendants’ injuries to Petitioner’s
constitutional rights which are continuing due to inaction on Petitioner’s emergency requests in
the District and Appeallate Courts.

2

CONSTITUTIONAL PROVISIONS AND
STATUTES INVOLVED IN THE CASE
14.

The constitutional and statutes relied on in this Petition are as follows:

a)

The First, Foruth, Fifth and Fourteenth Amendments to the United States

Constitution. These Amendments are provided in Appendix J.
b)

Virginia Code § 44-146.17. This statute is in Appendix K, page K-2.

c)

Virginia Code § 32.1-48.05. This statute is in Appendix K, page K-4.

d)

Virginia Code § 32.1-48.08. This statute is in Appendix K, page K-5.

e)

Virginia Code § 32.1-48.010. This statute is in Appendix K, page K-6.

3

STATEMENT
15.

Defendant Governor Northam signed and issued EO-55 dated March 30, 2020

[Appendix D], citing Va. Code § 44.146-17 and instituting a stay at home order on the entire
State and its population, such order restricting all citizens’ right to travel, assemble, worship and
use of their private property under criminal penalty, with exceptions only granted by the
authority of the governor. Despite the Governor claiming that he was using his emergency
powers due to a public health threat, neither Defendant Northam nor the State Health
Commissioner invoked Va. Code § 32.1-48.05 as called for during public health threat to
officially declare a quarantine, such action depriving all healthy citizens the due process rights
guaranteed under Va. Code § 32.1-48.010 during a quarantine. Petitioner, a resident of Virginia,
is subject to Defendant Northam’s order and filed a complaint [relevant excerpts in Appendix E]
alleging injury due to violation of Petitioner’s and other citizen’s rights under the First, Fourth,
and Fourteenth Amendments of the United States Constitution.
16.

Petitioner sought emergency preliminary relief of the injuries by Defendant’s

orders to his constitutional rights with a Motion for Preliminary Injunction and Expedited
Hearing [relevant excerpts in Appendix Fj. The District Court entered a final Order denying his
request for preliminary relief or preliminary-injunction hearing on April 8, 2020 [Appendix B].
Petitioner appealed the District Court’s ruling as an interlocutory order on April 13, 2020 in the
Fourth Circuit Court of Appeals, filing an emergency motion seeking preliminary relief or stay
pending a hearing [relevant excerpts in Appendix Hj. The Fourth Circuit Court of Appeals Order
of April 28, 2020 denied Petitioner’s request for emergency preliminary relief and granting of a
preliminary-injunction hearing [Appendix C]. This Petition is filed under this Gourt’s Rule 11,
seeking Writ of Certiorari to review a case pending in the Fourth Circuit Court of Appeals. This
Court has jurisdiction to hear this Petition under 28 USC § 2101(e).

4

17.

This case raises issues concerning whether an Executive can use emergency

powers to enforce a quarantine when no protections required under the law for quarantined or
isolated individuals are in place. A large body of law has been developed which gives immense
power to the Executive to quarantine and isolate persons suspected of an infectious disease, but
requires that this power be used in the least restrictive way and with due process available to
those who are not infected. This case involves a Governor declaring a state of emergency due t a
public health threat without invoking the required quarantine laws, effectively denying all
citizens a right to due process.
18.

The question of whether an Executive’s emergency powers alone can deprive a

state’s population of their constitutional rights without due process for an extended period of
time arises if the Defendants’ orders are not a quarantine. This case does not involve the use of
emergency powers when there is an immediate threat to all or most of the population, such as
when an entire community was issued stay at home orders because the Boston bombers were
fleeing and presented an immediate threat to any individual in the area in April, 2013. It is
noteworthy in the Petitioner’s case that the threat raised in the Defendants’ orders is not a direct
threat to life as the Boston bombers who were exchanging gunfire and bombs with the police in
the streets of Boston at that time. It is also noteworthy that the threat in the case of the Boston
bombers only lasted until the bombers were apprehended, with the stay at home order lasting no
longer than 24 hours.
19.

The use of emergency powers in Petitioner’s case is more like the use of

emergency powers during World War II when an exclusion order was used by the authoriti es to
detain and intern Japanese-Americans in order to deal with the threat of saboteurs among the
Japanese-American population, which led to this Court upholding the Exclusion Order in the
case of Korematsu v. United States. As in the Korematsu case where the military authorities

5

determined it was proper to treat all Japanese-Americans as dangerous because it was too
difficult to separate the dangerous citizens from the innocent citizens, Petitioner’s case involves a
Governor who has declared that all healthy-appearing persons may be carrying the infection,
stating “Whereas, COVID-19...can be spread from an infected person who does not have
symptoms to another person” [Appendix I], making it too difficult to determine who is actually
infected and who is healthy. Just as in the case of Korematsu the military authorities used fear
and panic to allow their emotional reaction to the Japanese race to determine the risk to the
public rather than facts or science, Petitioner has provided evidence from leading scientists and
tire public statements of the Administration’s own infectious disease experts to show that there is
no consensus in science which supports Defendant Northam’s determination and that Defendant
Northam’s Executive Orders are based on the fear and panic-fed belief that healthy persons can
carry and transmit the disease prior to the appearance of symptoms (Appendix E, paragraphs 14
through 18; Appendix H, paragraphs 11 to 13 and footnotes.). This case gives this Court the
opportunity to depart from the precedent in Korematsu and to make it clear that just as
quarantine restrictions of constitutional rights must be limited to the least restrictive means
possible, restrictions imposed under emergency powers during a state of emergency cannot be
justified to apply to all persons, the guilty and the innocent, just because it is easier for the
Executive to deprive everyone of their rights.
20.

Even if this Court fails to depart from Korematsu and supports the universal use

of emergency powers to deprive all citizens of their rights based on determinations not supported
by a consensus of science, the question arises as to how long can an Executive impose such
questionable restrictions. Can an executive operating on emergency powers alone, outside of
quarantine laws, deprive all citizens of their rights for as long as the Executive believes the
unproven danger of pandemic endures?

6

21.

The due process questions of this case do not end with the Executive Orders. If

Executive Orders can restrict the rights of the citizens and deny them access to the Courts
because of shutdown orders, does that effectively suspend the Constitution? This case raises the
question as to whether the Federal Courts have a duty under the Constitution to ensure there is
due process for the hearing of emergency requests for relief even during a state of emergency
when the Executive’s orders have led to the prohibition of in-person hearings. Do the District
Courts have to ensure that there is at least one process for emergency requests to be heard if the
Constitution is not truly suspended during the duration of a state of emergency? It is noteworthy
that the Defendants’ orders in Petitioner’s case actually explicitly deprive Defendant Northam’s
political opponents of the right to assemble and to build popular support against Defendant
Northam’s orders. If the Executive does not provide any due process and the Courts are allowed
to deny the citizens a hearing during the duration of the Executive Orders, the citizens will not
even have an unencumbered avenue to effect change through the political process. If the
Constitution can be suspended during a state of emergency by a single elected official without
judicial review or the threat of change through the electoral process, Petitioner’s case provides
the most perfect case for this Court to determine when the emergency power of the Executive
can abrogate the founding principles of our Republic.

7

REASONS FOR GRANTING THE PETITION
22.

Petitioner believes that there are four main reasons for the Court to grant his

request. Anyone of these have a compelling public interest and substantial precedential value
which calls for review by this Court. The circumvention of quarantine law during a public health
emergency which denies all citizens due process is such a paramount precedent that will serve to
disenfranchise many mil-lions of Americans in the future if it is not dealt with now. Similarly,
whether the precedent from Korematsu will continue to be the law of the land and justify the
blanket confinement of millions of Americans who are innocent of any offense at the whim of an
un-indictable Executive determination is another issue ripe for review in this case. The failure
of the Courts to respond to Executive Orders without due process by denying a hearing to
emergency requests for relief on the sole basis of the determination of the Executive is a critical
issue of the proper role of the Courts during a state of emergency. Finally, the errors in law to
emergency requests for preliminary relief since this Court’s guidance in Winter are ripe for
review by this Court.

Circumvention of Quarantine Taw
23.

To the extent that Defendant Northam’s EO-55 is a quarantine of individuals like

Petitioner and orders all (who do not meet the exceptions for essential business) to home
confinement, Defendant Northam has acted to circumvent quarantine protections and deny ail
Virginians due process. EO-55 provides no due process to individuals affected by the order and
the Courts to-date have denied Petitioner any timely hearing for procedural due process during a
quarantine, which is an error in law and violates Petitioner’s rights under the Fifth and
Fourteenth Amendments. (“The Constitution requires some kind of hearing before the State
deprives a person of liberty or property.”, Zinermon v. Burch, 494 U.S. 113,127 (1990); see

8

O’Connor v. Donaldson, 422 U.S. 563 (1975) for discussion of due process for involuntary
confinement for any reason.) Most states, including Virginia provide due process under statutes
authorizing confinement due to isolation or quarantine. In Virginia, Va. Code § 32.1-48.010
provides for petition to Virginia Circuit Courts for redress of the abuse of quarantine powers:
“A. Any person or persons subject to an order of quarantine or a court-ordered extension
of any such order pursuant to this article may file an appeal of the order of quarantine as
such order applies to such person or persons in the circuit court for the city or county in
which the subject or subjects of the order reside or are located or the circuit court for the
jurisdiction or jurisdictions for any affected area.”
24.

However in this case, Defendant Northam’s orders under EO-55 do not avail

those citizens quarantined under the stay-at-home order any due process opportunity provided
under Va. Code § 32.1-48.010, as the statute normally would for all proper quarantine actions. In
fact, EO-55 does not provide any citizen due process to avoid unnecessary quarantine
restrictions. Specifically, Va. Code § 44.146-17, which Defendant Northam’s Executive Order
cites for his authority, makes no mention of the use of a state of emergency during a public health
threat except for the following:
“A state of emergency may address exceptional circumstances that exist relating to an
order of quarantine or an order of isolation concerning a communicable disease of public
health threat that is issued by the State Health Commissioner pursuant to Article 3.02 (§
32.1-48.05 et seq.) of Chapter 2 of Title 32.1.”
25.

It is noteworthy that as of the time of this Petition, no such order has been issued

by Defendants. If Defendant Northam purposely circumvented a declaration of a quarantine
under Va. Code § 32.1-48.05 during a public health threat as the legislature intended, the Court
should inquire whether this was for a corrupt purpose which has denied all citizens the due
process provided by Virginia quarantine laws, as seems to be the case.
26.

For many years, the States had unhindered power to quarantine: "They form a

portion of that immense mass of legislation which embraces everything within the territoiy of a

9

State not surrendered to the General Government; all which can be most advantageously
exercised by the States themselves. Inspection laws, quarantine laws, health laws of every
description...." [Gibbons v. Ogden, 22 U.S. 1, 203 (1824)] However, since the later nineteenth
century, this body of law has grown at the Federal level to limit the abuse of quarantine power by
the States. With “an evil eye and an unequal hand...the denial of equal justice is still within the
prohibitions of the constitution.” [Jew Ho v. Williamson, 103 F.10 (C.C.N.D. Cal., 1900).] “Even
[when] the governmental purpose [is] legitimate and substantial, that purpose cannot be pursued
by means that broadly stifle fundamental personal liberties when the end can be more narrowly
achieved.” [Shelton v. Tucker, 364 U.S. 479, 488 (I960).] Does the state-wide, universal
restrictions in Defendant Northam’s order satisfy Shelton in any way? If Defendant NorthanTs
justification is that all citizens are infected because healthy people can somehow transmit the
virus, Petitioner has provided evidence that the consensus of science does not support this theory.
(Appendix E, paragraphs 14 through 18; Appendix H, paragraphs 11 to 13 and footnotes.) The
Court has a important role to ensure that the State's interest in protecting the lives of citizens is
not used to justify the most extreme measures which deprive individual citizens of their
fundamental Constitutional rights.

Abuse of Emergency Powers
27.

In the infamous decision of Korematsu v. United States, the Supreme Court dealt

with the denial of a U. S. citizen’s rights to liberty and property under emergency orders of
government authorities. As in this case, where every healthy person is assumed to be guilty of
being a possible transmitter of COVID-19 and must give up their rights to liberty and property to
protect the interests of the State, the Exclusion Order in Koramatsu was based on the belief that
all Japanese-American citizens were assumed to be guilty of being a collaborator with the

10

Japanese empire and deprived these citizens their liberty and property under the guise of a State
interest. The injustice of that decision is embodied in the following, which reminds the Petitioner
of how Defendant NorthanTs orders is being applied to every person within the entire
population, which makes it easy for Virginia to circumvent due process and avoid having to
worry about segregating the sick from the healthy in today’s environment:
“Like curfew, exclusion of those of Japanese origin was deemed necessary because of the
presence of an unascertained number of disloyal members of the group, most of whom
we have no doubt were loyal to this country. It was because we could not reject the
finding of the military authorities that it was impossible to bring about an immediate
segregation of the disloyal from the loyal that we sustained the validity of the curfew
order as applying to the whole group.” (Korematsu v. United States, 323 U.S. 214, 219
(1944))
28.

The dissenting opinion of Justice Jackson provided an echo of the traditions of

our Republic at the time when the war panic of World War II (not too unlike the virus panic of
today) was depriving vast numbers of U. S. citizens their Constitutional rights to property and
liberty unjustly:
“Korematsu was born on our soil, of parents bom in Japan. The Constitution makes him a
citizen of the United States by nativity, and a citizen of California by residence. No claim
is made that he is not loyal to this country. There is no suggestion that, apart from the
matter involved here, he is not law-abiding and well disposed. Korematsu, however, has
been convicted of an act not commonly a crime. It consists merely of being present in the
state whereof he is a citizen, near the place where he was bom, and where all his life he
has lived.” (Justice Jackson dissent, Korematsu v. United States, 323 U.S. 214, 243
(1944))
29.

The Korematsu decision is a perfect example of a Court willing to sacrifice the

fundamental rights of the Constitution for the expediency of a National Emergency. This
infamous approach to the government’s use of emergency powers is roundly considered bad law:
“Korematsu was gravely wrong the day it was decided, has been overruled in the court of history,
and to be clear has no place in law under the Constitu-tion.”

[Trump v. Hawaii, 585 U.S.___

(2018), Record No. 17-965] Petitioner’s Motion to Reconsider (paragraph b) draws the analogy

11

between the panic of war which allowed the Courts to rubber stamp the abuse of power by the
authorities in Korematsu with the panic of the pandemic today, which so far has caused the
District Court to abdicate its duty in limiting unprecedented State power and seemingly has
deterred the Appellate Court from weighing in. Unlike Korematsu, we are seeing the emergency
powers today under Defendant Northam deprive millions more citizens of their liberty than what
the Exclusion Order in Korematsu ever did. Inaction by this Court will serve to perpetuate the
bad precedent of Korematsu by allowing Defendant Northam’s orders to stand, “where every
healthy person is assumed to be guilty of being a possible transmitter of COVID-19 and must
give up their rights to liberty and property to protect the interests of the State....” [Appendix G,
page 4.] The opportunity for this Court to take Petitioner’s case and clarify when Executives
have authority under Korematsu to suspend the Constitution is of substantial precedential value
when many states are currently depriving their citizens of their fundamental rights based on the
theory that innocent healthy people are guilty of being infected.

Denial of Due Process in the Courts during the State of Emergency
30.

The District Court’s denial of Petitioner’s request for emergency preliminary

relief, including denial of a preliminary-injunction hearing due to the State of Emergency,
extinguishes Tolle’s opportunity for any timely due process for preliminary relief in light of
protracted injury and the most unprecedented and draconian measures under emergency powers
probably since the Civil War is an error in law. The Appellate Court’s summary dismissal of
Petitioner’s request for emergency preliminary relief and preliminary-injunction hearing
perpetuated the District Court’s denial of Petitioner’s right to a hearing under the Fifth
Amendment. Due process is an essential safeguard established over the course of centuries used
by society to obtain fair judgment. (“This Court is not alone in recognizing that the right to be

12

heard before being condemned to suffer grievous loss of any kind, even though it may not
involve the stigma and hardships of a criminal conviction, is a principle basic to our society”
Joint Anti-Fascist Refugees Committee v. McGrath, 341 U.S. 123,168 (1951).) Even when the
government authority is acting to deprive a citizen of property or liberty rights through its
executive power, due process calls for procedural protections. (“Such a hearing need not take the
form of a judicial or quasi-judicial trial, but the recipient must be provided with timely and
adequate notice detailing the reasons for termination, and an effective opportunity to defend by
confronting adverse witnesses and by presenting his own arguments and evidence orally before
the decisionmaker.” Goldberg v. Kelly, 397 U.S. 254, 254 (1970); “It has been said so often by
this Court and others as not to require citation of authority that due process is flexible, and calls
for such procedural protections as the particular situation demands....Its flexibility is its scope
once it has been determined that some process is due; it is a recognition that not all situations
calling for procedural safeguards call for the same kind of procedure.” Morrissey v. Brewer, 408
U.S. 471, 481 (1972)) Even if the scope or form of due process varies depending on the situation,
it is clear that denial of fundamental property and liberty freedoms by the Defendants must
include due process. By failing to offer Petitioner even a preliminary-injunction hearing due to
the restrictions of the virus, the Courts are denying Petitioner the basic due process of
preliminary relief for reasons which should be reviewed by this Court. The District Court’s fear
of offering Petitioner any type of hearing seems to apply universally and makes this a compelling
issue of such impact to the public that this Court should review it.
30.

By denying Petitioner’s request for a stay or expedited hearing on the District

Court’s injury to his due process in the Fourth Circuit, the Appellate Court has added to the
injury to Petitioner’s Fifth and Fourteenth Amendment rights. This Court can restore the rule of
law by ensuring that the lower Courts allow for due process under emergency circumstances

13

even if traditional hearings cannot be held. Due process is important enough during times of
emergencies in order to ensure the Constitution is still enforced at these times. It is critical to our
Republic that the Courts do not shut down like a non-essential business and that the District
Courts and Appellate Courts find some way to use alternate means to afford hearings when inperson hearings are not possible.

Misapplication of Law under Winter v. Natural Resource Def. Council
32.

Petitioner’s pleadings (Appendix F, paragraphs 2 through 8) argued for emergency

relief based on the Supreme Court’s guidance for preliminary relief in Winter v. Natural Res.
Def. Council, Inc., 555 U. S. 7 (2008) (hereinafter, “Winter”), including: a) his complaint against
the Defendants is likely to succeed on the merits; b) he will continue to suffer irreparable harm in
the absence of preliminary relief; c) the balance of equities tips in his favor; and d) an injunction
is in the public interest. Petitioner believes that review by this Court is warranted because the
District Court’s application of the guidance from Winter was fatally flawed. If the Court
considers how seriously defective the District Court’s application of Winter was, it should be
clear that more action by this Court is needed in order to prevent the lower courts from distorting
the precedent established in Winter.
33.

Petitioner believes that the arguments in his pleadings involving the first two

criteria in Winter (sometimes called the gateway criteria) are persuasive. The record shows that
the District Court did not contest Petitioner’s showing of satisfaction of the gateway criteria,
even acknowledging in its ruling that the last two criteria are crux of the issue: "Even if plaintiff
were likely to succeed on the merits and to suffer irreparable harm in the absence of preliminary
relief, his motion for injunctive relief fails because he has not established that the balance of
equities tip in his favor or...the public interest." (Appendix B, p. 2.) Therefore, Petitioner believes

14

that the issues on review in this Petition and the granting of Appellant's request for immediate
relief turns on how the District Court’s analysis satisfied the equitable criteria in Winter.
Petitioner’s pleadings argued that the District Court did not give serious consideration to the
balancing of equities and the public interest in this case. Nor did the Court address all of
Petitioner’s arguments which tried to do this. After a review of how the District Court analyzed
the equitable criteria under Winter, it should be clear that the lower Court’s application of Winter
is fatally flawed according to the guidance of this Court.
34.

When considering cases under Winter, determining whether the justification used

for the government’s action is critical to completing the full analysis. No court of equity would
accept at face value the justifications for a Respondent’s actions, especially when a Plaintiff who
is claiming injury is providing evidence which calls into question those reasons and this should
be true in analysis under Winter too. In this case, the District Court did not make any
consideration of the reason for Defendant Northam’s actions, even when Petitioner was
providing evidence which indicted the government’s justification. Petitioner has argued that the
consensus of science does not support Defendant Northam’s theory that healthy individuals, or
people without symptoms, can transmit the virus. Petitioner’s complaint and his pleadings in the
lower Courts have provided evidence rebutting Defendant Northam’s theory about the danger of
healthy people, showing that the consensus of science does not prove that persons without
symptoms can transmit the virus (Appendix E, paragraphs 14 through 18; Appendix H,
paragraphs 11 to 13 and footnotes). Petitioner provided evidence from statements by leading
epidemiologists and doctors, including the Trump Administration’s leading infectious disease
authorities (ibid). Furthermore, Petitioner argues that Defendant Northam’s own actions show
that he does not believe that healthy people are a danger for spread of the disease because the
Defendant’s executive orders do not restrict dozens of persons working within the same building

15

as part of what Defendant Northam calls “essential” businesses (Appendix H, para. 13).
Balancing of Equities under Winter
35.

The District Court is wrong in its application of Winter because the consideration

of equities of both parties and the public interest requires a balancing of the concerns and needs
of all parties. This is shown in Winters: "In each case, courts 'must balance the competing
claims of injury and must consider the effect on each party of the granting or withholding of the
requested relief.' [Winters, Section B, quoting Amoco Production Co., 480 U. S., at 542.] For
Constitutional injuries, this "balancing" must consider if the un-enjoined actions of the
government are based on the minimum injury to citizen rights as the situation allows. Blind
acceptance of the executive's un-amended action as the only way to achieve the needs of the
government and interest of the public is not a proper application of the balancing required by the
law in Winters.
36.

The District Court's analysis erred because it did not make any attempt to

determine what government action could achieve the same goals with lesser impact to the
Constitutional rights of Virginia’s citizens. In Appellant's Motion for Reconsideration, Appellant
even offered the District Court an alternative way that the Executive Order could be modified in
order to accomplish the same things with less impact to citizen rights, similar to what is being
done in other states:
"Plaintiff respectfully requests the Court to grant a TRO or Preliminary Injunction which
at least stays the section stating: ’Violation of paragraphs 2, 3, 4 and 5 of this Order
shall be a Class 1 misdemeanor pursuant to § 44-146.17 of the Code of Virginia’... .this
action would make Defendant Northam’s Executive Orders commensurate with what
many other States are implementing under their stay-at-home orders...and would
represent a reasonable balance between the urgent need for preliminary relief and the
needs of public health." (Appendix G, p. 9)
37.

Winters clearly shows that the balancing done during the tipping analysis should

16

include an effort by the Court to understand how the Defendant's actions can be mitigated in the
interest of minimizing injury. In Winters, the Court only reached its conclusion in favor of the
government after considering how the government had modified their actions to achieve less
injuiy: Evidence “presented to the Court reflects that the Navy has employed mitigation
measures in the past, without sacrificing training objectives." [Winters, Section C.4, quoting 527
F. Supp. 2d, at 1238.] It is noteworthy that even though Petitioner's pleadings have discussed
how his requests for relief can be attenuated, neither Defendants nor the District Court have yet
considered any ways to mitigate the impact of Defendant Northam's orders. The District Court
ruled out any change in the Defendants’ actions out-of-hand as if any mitigation would kill
people, but this is neither supported by the consensus of science nor in keeping with the proper
balancing under Winters.1
38.

The tipping analysis for Winter properly considers the injuries to the citizens,

including the injury to due process. Petitioner’s pleadings clearly raises the unprecedented
impacts to the First, Fourth and Fourteenth Amendment rights of the citizens of Virginia
(Appendix E, pages 7-21) and due process rights for those affected (Appendix G, para, b and c).
Furthermore, the Fourteenth Amendment protections for equal treatment have been entrenched in
the body of law related to quarantines. Allowing quarantine decisions to be made based on
subjective biases about a disease is contrary to law. "The evidence here is clear that this is made
to operate against the Chinese population only, and the reason given for it is that the Chinese
may communicate the disease from one to the other. That explanation, in the judgment of the
court, is not sufficient." [Jew Ho] The hasty assumption by the Commonwealth of Virginia that
all healthy people can be infected, without proof, is an example of a bias not supported by a
1

Winters makes it clear that the Court should consider changes to the Defendant’s actions, even if there
is no firm evidence about the probable outcome ("But this is almost always the case when a plaintiff
seeks injunctive relief to alter a defendant’s conduct." [Winters, Section C.2.]
17

consensus in science, but is influencing the State's action to abuse its quarantine power.
Petitioner notes a violation of the Fourteenth Amendment here:
"Defendant Northam is unfairly treating healthy people the same as sick people and using
his quarantine and emergency powers against all in an unprecedented and extreme way.
This is akin to using the criminal powers of the Commonwealth’s government against
innocent people." (Appendix E, para. 64.)
39.

By not applying the balancing test properly under Winter, the District Court did

not complete a full analysis as required by the law. In the Third Circuit, the Appeals Court has
found District Court analysis fatally defective when balancing is not done as required by this
Court, (see Reilly v. City of Harrisburg, No. 16-3722, p. 5 (3d Cir. 2017).) This Court has a
compelling interest to ensure that the balancing in Winter is neither summarily dismissed by
blind acceptance of the validity of the government’s action nor distorted into a practice that
automatically gives undue weight to the statements of the government. There is also substantial
precedential value in clarifying the proper balancing of interests under Winter, For these reasons,
the errors arising from the District Court’s misapplication of the balancing required by Winter
give reason for this Court to grant Petioner’s request for review by this Court.

Consideration of the Public Interest
40.

The Winters criteria also calls for consideration of the public interest. The public

interest considerations in this case do not only involve the interest in keeping people at home.
The very definition of essential business which is found in Defendant Northam’s orders also
shows that there is a fundamental public interest in many healthy people not staying at home
[Appendix H, para. 20]. By requiring some businesses to remain open during the State of
Emergency, the Defendants are acknowledging that it is in the public interest for healthy people
to have the freedom to travel and to work in order to conduct the essential business of the public.

18

41.

Petitioner’s pleadings include the example of the abuse of government’s

emergency powers under the Supreme Court's decision in Korematsu v. United States, 323 U.S.
214 (Appendix G, para, c).2 As in this case, the Court in Korematsu relied on the determinations
of the authorities that it was easier to strip a vast number of innocent Americans their rights
under the Constitution because it was difficult to find those actually guilty of disloyalty, supra.
Petitioner believes that this Court will perpetuate the bad precedent of Korematsu if it does not
grant Petitioner a review in this case and decides to allow Defendant Northam’s orders to stand.
The public interest in ensuring that emergency powers are limited when fear and panic are
calling for excess should be considered as part of the Winters analysis.
42.

As noted in Petitioner’s pleadings (Appendix E, para. 43 and 45; Appendix F,

para. 6), Defendant Northam's orders are also perfectly designed to suppress or disenfranchise
any political opposition to his actions. Defendant Northam's orders explicitly make it illegal for
any political opponent to rally opposition against the government's action because it directly
attacks the fundamental right of Americans to assemble for political dissent in order to have their
voices heard and forbids any more than 10 people in one place.
43.

Under these circumstances, inaction by the Courts effectively colludes with the

Executive to deny citizens all avenues of redress of an abuse of power: administrative, judicial
and electoral avenues have been eliminated by the actions of a single man. Under Winter, it is in
the public interest that government actions should provide due process and some avenue of •
redress.
44.

In the case of quarantine restrictions, Petitioner has also cited law which requires

citizens under a quarantine be given rights and due process and that the restrictions related to
2

The District Court mentions Appellant’s reference to Korematsu without specifically rebutting it.
[Appendix B, page 2] Indeed, the unquestioning belief that the District Court expresses in the
inerrancy of the Governor [ibid., pages 2-3] sounds very reminiscent of the reliance that the Supreme
Court in Korematsu put into the inerrancy of the authorities then.
19

quarantine to be as limited as possible, supra. Blanket executive orders like Defendant
Northam’s orders do not protect the rights of the innocent and are clearly not as limited as
possible. These excesses are not in the public interest, as reflected under current quarantine law.
45.

All of these reasons raise interests of the public which should be properly

considered under analysis of the Winter for the public interest. By failing to consider any of
these reasons for the public interest, the District Court erred in law by not properly applying the
guidance in Winter.

Life and Death Considerations
46.

The analysis for Winter in the District Court’s Order seems to rely almost entirely

on the fact that the public health mission of the Commonwealth involves life and death: “...the
stakes...are life-or-death” [Appendix B, p. 3].3 However, the large body of quarantine law which
can be applied to this case also clearly involves the concern for life and death of the citizens.
Petitioner has shown that this body of law calls for limitations and restrictions on the abuse of
the state’s power to quarantine, even when life and death is concerned, supra. By summarily
accepting the Defendants’ justifications as the overriding public interest without any
consideration of the other public interests shown above, the District Court has erred in its
application of Winter. Consideration of the public interest under Winter should not be a cursory
analysis based on one factor. By failing to apply the “serious consideration to the public interest
factor” required by this court [Winter; Section C.l, quoting the Ninth Circuit Court of Appeals at
502 F. 3d], the District Court’s application of Wnter was incomplete and calls for further review.
3 The District Court’s Order also makes the erroneous statement that the Coronavirus emergency is
“unprecedented”. Petitioner’s pleadings provide ample evidence that any basic understanding of
history shows that the current pandemic is not the worst contagion faced by this nation, failing to
compare to the worst outbreak by far, and not even much worse than annual influenza outbreaks
[Appendix H, para. 29]. Even if this Court believes that the Winter analysis is complete, basing it on
facts which are clearly wrong should raise concern and warrant further review of this case.
20

Misapplication of Winter Analysis is Fatal
47.

Petitioner’s appeal raises errors in law and in fact in how the District Court

applied the criteria under Winter. There is no evidence that the Petitioner’s satisfaction of the
first two criteria of Winter (the gateway criteria) is in dispute. However, the District Court’s
analysis of the equitable criteria under Winter was so cursory or flawed that it calls into question
whether the full analysis of Winter was actually completed by the lower court. If this Court
relies on an Abuse of Discretion standard to review this case, the Court should consider the
discretion which was exercised by the lower court in light of the incomplete analysis and flaws in
the District Court’s ruling. In Winter, this Court noted that Appellate review is proper and
consideration of a lower Court’s discretion alone is not appropriate when the lower Court’s
analysis for Winter is cursory: “The subsequent Ninth Circuit Court panel framed its opinion as
reviewing the District Court’s exercise of discretion...but that discretion was barely exercised
here.” [Winter, Section C.l] For these reasons, Petitioner believes that the serious flaws shown
above in the District Court’s analysis of the balancing of equities and public interest in this case
should warrant review by this Court and granting of Petitioner’s request for Writ of Certiorari
even if an Abuse of Discretion standard is employed because the failure of the lower court to
apply Winter properly in this case is an abuse of discretion and there is a substantial precedential
value for this Court to address this abuse of discretion.
48.

Petitioner believes that the misapplication of Winter in a lower court’s analysis is

more properly an error in law. Since this Court’s guidance from Winter calls for the proper
application of all four criteria in order to ensure an individual’s constitutional rights are protected
under the law in the face of government restrictions, failure of the District Court to properly
apply all of the criteria in Winter in this case is an error in law. If this Court accepts Petitioner’s

21

theory that the standard of review in this case is Legal Error, Petitioner has shown multiple
failures to apply the law under Winter during the District Court’s analysis. This includes the
errors in applying the balancing of equities to properly determine the impact to the rights of both
parties and failure to determine the least restrictive form of the government action as part of the
balancing test, as shown above. It also includes the failure of the Court to perform a serious
consideration of the public interests and failure to properly consider all of the public interest
issues raised by Petitioner. Based on these errors in law, there is a compelling legal interest for
this Court to review this case. There is also substantial precedential value in the Court correcting
the errors in law undercutting the Winter analysis. For these reasons, this Court should grant
Petitioner’s request for Writ of Certiorari because of the errors in law.

22

CONCLUSION
49.

The present Petition puts issues which are compelling in light of the public

interest throughout the nation during the Coronavirus pandemic and have substantial precedential
value concerning emergency powers, due process, and the proper application of this Court’s
guidance in Winter to decide on requests for emergency preliminary relief. This Court should
grant Petitioner a Writ of Certiorari for one or more of the following reasons explained in the
foregoing:
a)

The circumvention of quarantine law during a public health emergency which

denies all citizens due process is such a paramount precedent that will serve to disenfranchise
many millions of Americans in the future if it is not dealt with now;
b)

The precedent from Korematsu will continue to be the law of the land and justify

the blanket confinement of millions of Americans who are innocent of no crime at the whim of
an un-indictable Executive determination if no action is taken in this case;
c)

The failure of the Courts to provide access to preliminary relief and emergency

hearings to injured citizens when an Executive’s orders subject them to confinement without due
process;
d)

The errors in the application of this Court’s guidance in Winter by Courts in the

Fourth Circuit and denial of access to emergency relief call for review by this Court.
50.

Petitioner’s believes that his case is more compelling and deals with substantial

precedential issues unlike any other case involving Stay at Home orders during the pandemic
which are currently before the Appellate courts:
a)

Binford v. Sununu: A decision in State Superior Court used a two-pronged test

from Smith v. Avino, 91 F.3d 105 (11th Cir. 1996) in lieu of the Winter criteria;4
4 Petitioner’s complaint should pass Avino test, claiming both bad faith (by a Governor circumventing
established quarantine law to inflict his will on the citizenry) and insufficiency of the factual basis in the
23

b)

Friends of DeVito v. Wolf: Pennsylvania Supreme Court challenge of state

Executive Order restricting business and political offices; unlike Appellant’s case, the state order
has no criminal penalties and Court found that the state afforded due process;
c)

Nigen v. New York: New York Executive Orders 202.8 and 202.10, which do not

require criminal penalties as in Appellant’s case; order only denied ex-parte TRO without Winter
and did not deny Plaintiff due process by granting a preliminary-injunction hearing.
51.

None of these other cases present the compelling issues of the abuse of emergency

powers, denial of due process and misapplication of this Court’s Winter guidance as are found in
this case. For these reasons and the foregoing reasons found in the specifics of the Petitioner’s
case, as described above, this Court should find reason to grant Petitioner his request for a Writ
of Certiorari. Petitioner respectfully requests that this Court grant a Writ of Certiorari to hear
Petitioner’s case.

Dated:

I

Zoio
Respectfully submitted,
By:
fames Tolle
Pro Se
11171 Soldiers Court
Manassas, VA 20109
703-232-9970,
jtmail0000@yahoo.com

consensus of science for the excessive restrictions in Defendant Northam’s orders.
24

